No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

STACIA O’NEIL
Petitioner,
v.
MARISA BERQUIST,
COMMONWEALTH MEDIATION & CONCILIATION, INC.,
TRAVELERS INDEMNITY COMPANY OF CONNECTICUT

Respondents.
PROOF OF SERVICE
I.STACIA O’NEIL , do swear or declare that on this date,
2020 , as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

The names and addresses of those served are as follows:

John P. Graceffa, Esq.
Nicollete B. DAiley, Esq.
Morrison Mahoney, LLP
250 Summer Street
Boston, MA 02210
jgraceffa@morrisonmahoney.com
ndailev@morrisonmahonev.com
Attorney for Respondent, Travelers Indemnity Company of Connecticut
Dave Bae, Esq.
Michael P. Johnson, Esq.
Boyle and Shaughnessy Law PC
695 Atlantic Avenue
11th Floor
Boston, MA 02111
dbae@boyleshauqhnessv.com
Attorney for the Respondent, Marisa Berquist

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December

, 2020

Respectfully submitted

STACIA O’NEIL
24 Milbern Avenue
Hampton, NH 03842

Additional material
from this filing is
available in the
Clerk's Office.

